                                     SOCIAL SECURITY
MEMORANDUM

Date:   August 11, 2008                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Quick Response Evaluation: The Social Security Administration’s Electronic
        Government Services (A-14-08-28113)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to determine the Social Security Administration's current electronic
        services available to the public and how future initiatives can be expanded. We focused
        our review on the Internet retirement application portion of Social Security
        Administration's Internet Social Security Benefit Application.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
   QUICK RESPONSE
    EVALUATION
The Social Security Administration’s
  Electronic Government Services

            A-14-08-28113




             August 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                              Background
OBJECTIVE
The objective of our evaluation was to determine the Social Security Administration's
(SSA) current electronic services (eServices) available to the public and how future
initiatives can be expanded. We focused our review on the Internet retirement
application portion of SSA’s Internet Social Security Benefit Application (ISBA).

BACKGROUND
SSA is responsible for administering the Old-Age, Survivors and Disability Insurance
(OASDI) program. The OASDI program provides retirement benefits to insured
individuals who have reached the minimum retirement age, survivors’ benefits to
dependents of insured wage earners in the event the family wage earner dies, and
disability benefits to disabled wage earners and their families. 1 Additionally, SSA is
responsible for administering the Supplemental Security Income program. 2

SSA’s administration of its services has been primarily through face-to-face contact with
the public at one of its field offices (FO) or by telephone contact. 3 ISBA 4 was introduced
in November 2000 (see Appendix C) as the Agency’s first step in transitioning to
web-based services for both retirement and disability claims. Over the last 8 years,
SSA has automated more of its workload and is attempting to conduct more of its
business with the public over the Internet.

SSA is developing a wide range of eServices to improve its services to the public
because the Agency is facing what is often referred to as a “silver tsunami” 5 of baby
boomer claims. Due to the aging of the baby boomers, SSA is facing an avalanche of
retirement and disability claims at the same time that it must address large backlogs
due to years of increasing workloads and limited resources. 6 The first of approximately
1
    The Social Security Act §§ 202(a) - (k) & 223, 42 U.S.C. §§ 402 (a) - (k) & 423.
2
 The Supplemental Security Income program provides a minimal level of income to individuals who are
aged, blind, or disabled. (Social Security Act §1601, et seq., 42 U.S.C. §1381, et. seq.).
3
 SSA has approximately 1,300 offices that include FOs, regional offices, teleservice centers, program
service centers, hearing offices and State disability determination services.
4
 ISBA was originally called the Internet Retirement Insurance Benefit (IRIB). IRIB allowed the public to
complete the retirement application online, transmit the data to SSA, and then print and sign the
application. IRIB was expanded to include aged spouses and disability applications.
5
 SSA News Release; “Nation’s First Baby Boomer Files for Social Security Retirement Benefits –
Online!” October 15, 2007.
6
 SSA Commissioner Testimony before the House Committee on Appropriations, Subcommittee on
Labor, Health and Human Services, Education, and Related Agencies, February 28, 2008.


SSA’s Electronic Government Services (A-14-08-28113)                                                       1
80 million baby boomers has already applied for retirement benefits. Baby boomers are
also applying for disability benefits in greater numbers than previous generations. Over
the next 10 years, SSA’s traditional workloads will increase substantially—retirement
claims by over 40 percent and initial disability claims by nearly 10 percent. 7

With millions of Americans becoming eligible for Social Security retirement benefits at
the rate of 10,000 per day for the next 2 decades, SSA is developing a wide range of
online and automated services and is seeking to transform its service model. The
Agency believes maximizing the use of modern technology and improving the service
delivery model will enable SSA to continue to provide critical services to all future
beneficiaries. 8

SSA has begun initiatives to convince the public to take greater advantage of its online
and automated telephone services. According to Commissioner Astrue, “Doing so is
one of the only ways we can survive the coming demographic surge.” 9

In addition to the SSA Commissioner, representatives of SSA’s FO management
published their views on SSA’s eServices. An organization representing SSA FO
management published an article in its April 2008 newsletter 10 describing SSA’s
eServices, the need for improvement, the progress the Agency has made and the
challenges it still faces. The article stated while a community-based office approach
(that is face-to-face customer service) is desirable, given the current budget situation; it
is not a realistic way to serve all of its customers in the future. 11

To emphasize the importance of eServices in meeting SSA’s mission and utilize the
creativity and operational awareness of field components in shaping enhancements to
the Agency’s eServices, the Deputy Commissioner for Operations requested the Dallas
Regional Commissioner and the Associate Commissioner for the Office of Electronic
Services to form an eServices Advisory Council. 12




7
    Ibid.
8
    Ibid.
9
    SSA Commissioner Astrue, Broadcast to SSA employees, October 2, 2007.
10
  National Council of Social Security Management Associations, Inc., Frontline, April 2008 issue,
pages 1-3. The council represents over 3,500 members of SSA's management team.
11
     National Council of Social Security Management Associations, Inc., Frontline, April 2008 issue, page 2.
12
     National eServices Advisory Council (NeAC).



SSA’s Electronic Government Services (A-14-08-28113)                                                       2
                                                             Results of Review
As of the end of Fiscal Year (FY) 2007, SSA was offering 17 eServices to the public. 13
One of these services, the Internet retirement application, has been available for about
8 years but as of March 28, 2008, only 13.6 percent of SSA’s FY 2008 retirement
applications were filed online. Studies have shown that the public wants to conduct
more business via the Internet and the E-Government Act of 2002 requires that Federal
agencies provide more Internet services when practicable. 14 SSA has plans to increase
the use of its Internet retirement application and expand its online services. However,
SSA must overcome several challenges to meet its Internet services goals including
increasing its use, implementing planned enhancements, and addressing critical issues.

INCREASING THE USE OF SSA’S INTERNET RETIREMENT
APPLICATION
Although SSA’s Internet retirement application is one of the highest rated Internet
applications 15 in the Government, it is not widely used by individuals applying for
retirement benefits but there are indications of increased use. As shown in Table 1
below, only 223,283 retirement benefit claims were filed through the Internet in FY 2007
(9.50 percent use). However, in the first 6 months of FY 2008, 182,568 retirement
claims had been filed via the Internet (13.63 percent). This is a 43 percent increase
since SSA publicized that the first baby boomer to file for retirement used the Internet to
file her claim.




13
     See Appendix D for a list of the services included in SSA’s eServices performance indicator.
14
   According to the March 18, 2008, American Customer Satisfaction Index (ACSI)/E-Government
Satisfaction Index, the public wants to conduct business through the Internet. Additionally, the
E-Government Act of 2002 (Section 202(a)(3) of Public Law 107-347) requires that Federal agencies
develop, maintain, and promote an integrated Internet-based system of delivering Federal Government
information and services to the public when practicable.
15
   Based on the ACSI E-Government Satisfaction Index dated March 18, 2008, SSA’s Internet retirement
application had the highest E-Government score (87 of 100). The ACSI E-Government Satisfaction Index
is a quarterly report that provides scores for over 100 Federal Websites based on data gathered from
voluntary online surveys of randomly selected site visitors.



SSA’s Electronic Government Services (A-14-08-28113)                                                  3
                             Table 1: SSA Retirement Applications 16
                                   Total              Internet       Percentage
                Fiscal
                                Retirement          Retirement       of Internet
                 Year
                               Applications        Applications        Claims
                 2008**          1,339,155            182,568            13.63
                 2007            2,349,145            223,283             9.50
                 2006            2,247,400            201,156             8.95
                 2005            2,217,800            164,159             7.40
                  ** First 6 months of FY 2008 as of March 28, 2008.

SSA has been studying why its Internet retirement application continues to receive the
highest rating from the public, yet does not have the usage rate desired. 17 The Office of
Electronic Services (OES) is responsible for meeting the Commissioner’s initiative to
improve the usage rate. In an effort to identify the most common misconceptions about
SSA’s online services and, most importantly, furnish participants with answers and
strategies for overcoming them, OES addressed the perception that online claims are
more time-consuming than traditional claims by providing statistics that show the reality
that Internet retirement claims take 13 minutes 18 less to process than traditional claims.

In June 2006, SSA’s Office of Quality Performance released the results of a survey 19
that found that 67 percent of traditional filers who identified themselves as Internet users
were aware of the Agency’s Internet retirement application. However, only 29 percent
of those aware of that Internet application considered using it. The main reason for not
using the online application was a preference for dealing with a person. Other reasons
given for not using the Internet retirement application were

•     convenience of traditional filing methods (in-person and telephone);
•     lack of experience with Internet; and
•     online application seemed intimidating or tried it but encountered a problem.

As a result of using a wide-range of marketing techniques to publicize the availability of
the Internet retirement application and persuade more people to use it, usage has
steadily increased over the last 4 FYs. However, SSA Commissioner Astrue testified 20
that “In order to keep field offices from being totally overwhelmed, we are going to need
to drive that online filing figure up from about 13% to 50% over the next 5 years."
16
     FY 2005-2008 data from OES eService Performance, Fiscal Year Comparison as of March 28, 2008.
17
  In FY 2007, SSA’s goal was to process 238,200 Internet retirement claims. The 223,283 Internet
claims processed were 93.7 percent of that goal or 9.5 percent of the retirement claims were processed in
FY 2007 instead of 10.1 percent.
18
     SSA, OES, eServices: Perception vs. Reality, May 2008.
19
     Survey of Retirement Benefit Applicants, Office of Quality Performance, June 28, 2006.
20
     Commissioner Testimony before the House Committee on Ways and Means, April 23, 2008.



SSA’s Electronic Government Services (A-14-08-28113)                                                   4
Assuming the FY 2008 Internet usage rate remains at 13.63 percent, SSA will need to
achieve a 30-percent annual increase in Internet retirement applications during the next
5 years to obtain a 50-percent usage rate by the end of FY 2013.

The FY 2006 study found that just under half of the traditional filers surveyed described
themselves as Internet users. Half of these Internet users did not use the Internet
because they preferred filing in-person or by telephone. However, this study was based
on those who filed for benefits in FY 2005. More current information on why many
traditional filers are unaware of the Internet option and why those who are aware of the
Internet option do not use it, would allow SSA to better tailor its marketing approach and
to make the Internet application more streamlined and user-friendly. According to SSA,
a study 21 was conducted in FY 2008 that may provide information on why the Internet
options have not been used more. However, these results were not available during
this review.

We summarized some of the issues that were hindering increased use of SSA’s Internet
retirement application as well as employee comments and concerns. Additionally, we
researched other agencies’ online application systems to determine their usage rates
and the techniques they used to achieve those rates.

Challenges to Internet Retirement Application Use and Workload Issues

There are a number of other factors that could result in the low use of the Internet
retirement application despite the application being one of the highest rated Internet
applications. For example, the public expressed concerns about

•    difficulties navigating the application;
•    not having streamlined text to reduce the user’s reading burden;
•    use of instructional pages instead of user-requested help screens;
•    screens with non-applicable questions for a claim; and
•    having to mail original documents (such as birth certificate) to SSA (leading some
     individuals to visit an SSA office rather than risk the loss of documents). 22



21
  Report on the Survey of Retirement and Survivors Insurance (RSI) Benefit Applicants Traditional
Retirement Applicant Segment, Office of Quality Performance, July 2008.
22
   To streamline the process, SSA changed its proof of age policy effective March 2008 in its Program
Operations Manual System (POMS). See SSA, POMS, GN 00302.030. Under the new policy and certain
conditions, individuals do not have to provide a proof of age document. Even with the policy change,
SSA had not changed the Internet application screen that still requires applicants to provide original proof
of age documents as of May 2008. According to SSA, the Internet Ready Retirement Application release
in September 2008 should reflect the policy change
(http://eis.ba.ssa.gov/appages/ISBA_Jan08/msg131.html).



SSA’s Electronic Government Services (A-14-08-28113)                                                      5
From an internal perspective, frontline employees generally support the Internet
retirement application. However, the Internet retirement application, in its current form,
poses some unique challenges to frontline workers fully embracing this service delivery
vehicle.

•     All Internet retirement applications still require a degree of manual intervention.
      Employees must pull the applicant’s data into the Agency’s Modernized Claims
      System (MCS) 23 and review the information screen by screen. 24

•     Manual intervention is required for partial Internet retirement applications. The
      Internet retirement application allows the claimant to stop entering data before the
      entire claim is completed. If the claimant decides to file in-person or by telephone,
      the data already entered via the Internet cannot be transferred into MCS. These
      applications cannot be downloaded into MCS. The retirement claim must be started
      at the beginning.

•     For more complicated cases, employees still need to discuss more complicated
      aspects of the claim with applicants to ensure accuracy and validity of the
      information submitted. One example is selecting the most advantageous month to
      receive benefits. 25 Frequently, the choice is between maximizing current income
      (delaying payment to receive a higher monthly amount) versus long-term total
      benefits (starting payment sooner but getting a lower monthly amount). Although the
      Internet application pre-selects the earliest payment month as the most
      advantageous, this month may not actually be the best for the claimant’s personal
      situation. Other examples of issues that result in additional efforts by employees are
      (1) earning record discrepancies; (2) windfall elimination provisions; (3) potential
      disability; and (4) government pension offset. The accuracy of these additional
      details can greatly impact the amount of retirement benefits received. On
      July 21, 2008, SSA launched a new Retirement Estimator 26 to make it easier for
      users to see how their benefit will differ whether taking benefits early or delaying
      their benefit until later.

•     FO management believes the FOs do not always get credit for Internet retirement
      application-related workloads. Either the FO or the Immediate Claims Taking Unit
      (ICTU) receives credit for an adjudicated application that originated through the
      Internet retirement application. During the application process, a claimant has the
      option of having their application processed at the local FO or ICTU to which the
      claimant is to mail required documents. Even in instances where the claimant has

23
     MCS is a system comprised of menus, submenus and data-entry input screens.
24
     SSA, POMS, GN 00204.050 – C.1.
25
     SSA, POMS, GN 00204.050 – F.9.
26
     An online application that provides a quick and reliable retirement benefit estimate.



SSA’s Electronic Government Services (A-14-08-28113)                                         6
    elected to have his/her application processed by the ICTU, some claimants decide to
    bring their documentation to their local FO. This leads to a FO staff perception that
    this results in more work for local FOs who do not get credit for processing this
    workload when the ICTU has jurisdiction over the claim.

•   The FOs also do not receive work credit for the additional marketing efforts to
    increase the use of online services. The Agency encourages FO employees to
    promote online services to the public. For example, these employees give
    presentations on SSA’s Internet services at local retirement homes and libraries.

Current Employee Comments

We interviewed operations supervisors in 54 FOs (see Appendix B for FO selection
details) on their experiences with processing the Internet retirement applications. In
general, their responses confirmed that front-line employees supported the Internet
retirement applications despite some of the challenges identified above. Specifically,
we found the following

•   Over 96 percent of the FO employees interviewed said it was easy or very easy to
    pull the Internet retirement application into MCS.

•   Those interviewed said 72 percent of their employees were familiar or very familiar
    with completing the Internet retirement application; however, 28 percent said their
    employees were not familiar with the online application.

•   Almost two-thirds said it was very easy to provide assistance with the Internet
    retirement application to the public when asked questions.

While not specifically asked their opinion about taking time to process applications that
are credited to the ICTU, some of those interviewed voluntarily expressed
dissatisfaction with the process and the way in which workload credits were assigned in
these situations.

These interviews also revealed FO employee concerns that are not unique to SSA.
These concerns relate to ensuring that the person who applied is who they say they are
and providing information in multiple languages. These are challenges that affect the
Government as a whole as it attempts to authenticate the individuals with whom it
interacts and provide services to an increasingly diverse client population that may not
be proficient in the English language.

After interviewing the FO employees, we spoke with the NeAC on the reaction the
online retirement application has had in the FOs. NeAC responses echoed the
concerns of FO staff regarding workload impact and credit. They also suggested SSA’s
Internet retirement application should provide an applicant the opportunity to select a




SSA’s Electronic Government Services (A-14-08-28113)                                      7
FO to process his application rather than relying on the automatically generated FO the
system selects based on zip code since it may be more convenient for the applicant to
use a specific office in another area.

Comparisons with Other Agencies

We compared SSA’s Internet retirement application to other agencies’ online application
systems to determine their usage rates and the techniques they used to achieve those
rates. We noted that two Federal agencies, the Internal Revenue Service (IRS) and the
Department of Education (Education), provided online services for the public that have a
usage rate greater than 50 percent. The IRS offers its customers e-file. 27 During the
2007 tax filing season, 125 million total tax returns were filed, of which 76 million
(61 percent) were filed electronically. 28 During January 2007, the IRS stated if
taxpayers used e-file and direct deposit, they could receive their refund in half the time.

Further, Education offers an electronic Free Application for Federal Student Aid
(FAFSA) for students to complete each academic year. Colleges use FAFSA to
determine financial aid eligibility for campus-based funds, state aid and scholarships.
Education promotes the online FAFSA stating “. . . it is easier then ever, especially if
you fill it out online.” As of July 2, 2006, 94 percent of the 2006/2007 academic filers
had submitted the FAFSA online. In October 2007, Education stopped distributing
paper FAFSA forms.

We recognize that the IRS and Education have different types of applications and
targeted audiences; however, these agencies are similar to SSA in that members of the
public provide information to the agency and based on that information, monetary
transactions occur. We believe these agencies’ initiatives to provide services via the
Internet demonstrate that it is possible to successfully promote and achieve public use
of Internet-based services. To that end, SSA may want to contact these agencies to
gather information on their best practices for achieving their high usage rates.

FUTURE DIRECTION OF SSA’S INTERNET RETIREMENT
APPLICATION
The Internet retirement application has demonstrated itself as a viable option for service
delivery. Despite some perceived hesitancy on the part of employees, there are clear
indications that the Agency is heading in a positive direction with this aspect of its
e-Government initiatives. For example, 13.63 percent of all retirement claims were



27
  E-file is the accepted term for electronic filing, or sending your income tax return from a tax software
package through the Internet to the IRS.
28
  2007 Filing Season Statistics – Cumulative through the weeks ending April 21, 2006 for 2006 and
April 20, 2007 for 2007.



SSA’s Electronic Government Services (A-14-08-28113)                                                         8
initiated online during the first 6 months of FY 2008, up from 9.5 percent in FY 2007.
During this same time period, Internet retirement claims saved adjudicators an average
of 13 minutes up from 9 minutes in 2006. 29

Where does the Agency go from here? Given the potential of the Internet retirement
application, how does the Agency plan to build upon this success to not only expand
this service; but to use it as a springboard for other Internet-based services? Below we
outline the Agency’s plans to enhance the Internet retirement application; potential
solutions to Internet retirement application challenges; and critical issues that should be
addressed as the Agency may seek to expand this and other Internet-based services.

IMPLEMENTING PLANNED ENHANCEMENTS FOR THE INTERNET
RETIREMENT APPLICATION
SSA plans to implement a redesigned Internet retirement application in
September 2008. With the redesigned application, individuals filing for benefits will only
be asked questions that are pertinent to their personal situation based on information
already housed in SSA’s electronic records. It will also allow users to navigate easily
among the different screens. Additionally, the application will have simple on-screen
help.

In developing the redesigned application, SSA obtained limited user input through one-
on-one usability testing and moderated focus group discussions in January 2008.
However, because of the Paperwork Reduction Act, 30 SSA could not collect information
to obtain feedback from additional individuals without first getting approval from the
OMB. 31

In May 2008, SSA released a marketing campaign to promote its online services. This
marketing campaign capitalized on the nationwide publicity gained when the first baby
boomer in the country filed online for retirement benefits on October 15, 2007. The
public service announcements (PSA) were distributed to 1,100 television stations in
almost every television market in the country, and related radio PSAs described how
easy it was for the first baby boomer to file online.

In conjunction with the PSAs, FO staffs and Public Affairs Specialists have been
conducting outreach initiatives to spread the word to “avoid the line, file online.” SSA
also has posters to distribute to organizations and to display in offices, as well as,
products such as nail files, pens and magnets that display the slogan and SSA’s web
site address.

29
     SSA, Office of Electronic Services, eServices: Perception vs. Reality, May 2008.
30
     Paperwork Reduction Act of 1995, 44 U.S.C. Sections 3502(3) & 3504(c)(1).
31
  Approval from OMB takes at least 100 days. Without this approval, SSA was limited to obtaining
feedback from only nine individuals.



SSA’s Electronic Government Services (A-14-08-28113)                                               9
All but one region had a hyperlink to tips, lessons learned or best practices. Most of the
regions had hyperlinks to the other region's eServices web page. The Dallas Region, in
collaboration with OES, publishes a monthly newsletter; eMerging News that contains
features such as current project summaries, eSuccess stories and eServices Questions
and Answers.

After the September 2008 enhancements, SSA plans to incrementally implement a
broader Ready Retirement initiative over the next few years. This initiative will include
public education, simplified enrollment and automated adjudication. 32 New features will
include universal direct deposit, 33 enhanced print features, retirement planner option,
foreign claims capabilities, access to partial claims, display of benefit information, and
enhanced authentication processes.

In addition, SSA has plans to

•    automatically import completed Internet retirement applications into MCS which will
     eliminate the time employees must take to manually “pull” the data stored on an
     Internet file into MCS;
•    allow for claims representatives to import partially completed Internet retirement
     applications into MCS;
•    implement a tool to determine what fields the online claimants have had difficulty
     completing, which will allow it to develop management information that will identify
     where in the process online users abandoned the application; and
•    administer changes to the back-end of MCS that will remove limitations on screen
     data fields such as name.




32
  Automated adjudication refers to the ability of a claims processing application to process a claim from
beginning to end without manual intervention regardless of the mode of filing. This will require a higher
level of authentication for Internet filers than currently exists for SSA and changes to all claims and
processing systems.
33
  The Department of the Treasury has a proposal to encourage all newly eligible Federal benefit
recipients to receive their payments by direct deposit if they have a bank account. Any current SSA
beneficiary or recipient without a bank account will be encouraged to open a bank account or enroll in the
Department of the Treasury’s prepaid debit card program.



SSA’s Electronic Government Services (A-14-08-28113)                                                    10
POTENTIAL SOLUTIONS TO INTERNET RETIREMENT APPLICATION
CHALLENGES

Based on discussions with Agency staff, we identified the following as potential
solutions as SSA moves toward enhancing its Internet retirement application. As the
Agency moves forward in developing other Internet-based services and to the extent
that similar challenges exist in those initiatives, the Agency can consider these items as
a part of their development

• Determine why individuals filed for retirement benefits in-person or over the
  telephone instead of online and what would be required to make online filing more
  attractive to this group.

• Use the Agency’s generic OMB clearance 34 to obtain larger customer focus groups to
  test, review and comment on proposed online screens. By acquiring additional
  individuals, SSA will be able to obtain better input from a broader range of potential
  users for the eServices as they continue to evolve and expand. The public input
  should be sought before new Internet applications are fully developed or redesigned.
  This will ensure the Agency resources, both human and capital, are invested in
  initiatives that are in alignment with the public’s needs and expectations.

• Use the information from the bullets above to improve the online retirement process
  and promote the online process as the preferred mode for filing for retirement. This is
  the same approach SSA used with success to encourage direct deposit instead of
  payments by check. Aggressive promotion of the online retirement application will be
  required to achieve the 5-year usage target of 50 percent.

• Continue its testing of kiosk terminals and computers with online services capability
  in the FO reception areas for the public’s use. To the extent that an applicant is
  already in the FO, this would assist in the transition from the face-to-face contact to
  the online channel of services.

• Provide applicants the ability to select the FO to process their application. Currently,
  SSA’s online retirement application automatically designates a FO based on the
  applicant’s zip code.

• Obtain artificial intelligence software to support the auto adjudication of the retirement
  application that would completely automate the retirement process (once level 3
  authentication is achieved). The Agency has not identified a solution to automate
  this process. Artificial intelligence software 35 can automate decisions and route
34
  OMB performs a full review of the generic clearance which includes approach and general
methodology at least once every 3 years. An expedited review of the individual collections that fall into
the generic clearance can be performed.
35
  Artificial intelligence is the study and design of intelligent agents, where an intelligent agent is a system
that perceives its environment and takes actions which maximize its chances of success.


SSA’s Electronic Government Services (A-14-08-28113)                                                         11
     applications for payment or to a claims representative for further review. The
     intelligence software makes decisions on the information supplied by the applicant
     and completes the processing of the claim based on existing SSA information. SSA
     could benefit from the use of intelligence software in fully automating 36 the retirement
     application process as well as other processes such as enumeration and disability.

• Expand electronic data sharing with other agencies while still taking steps to ensure
  the accuracy and protection of the data. The Agency is using existing SSA
  databases to match information entered into the Internet screens. A complementary
  approach would be to match the data entered with drivers’ license information.
  Currently, State Departments of Motor Vehicles match and verify information with
  SSA. Whatever the source, when acquiring data from external sources, SSA needs
  to obtain a level of assurance that the data are reliable.

• Continue to work with the General Services Administration (GSA) to acquire more
  Credential Service Providers. 37 GSA is responsible for identifying Credential Service
  Providers for SSA, but it has not found a sufficient number. GSA plans to submit
  proposals for new Credential Service Providers early this summer.

CRITICAL ISSUES RELATED TO EXPANDED AND INCREASED USE
OF ESERVICES
To build on the success of the Internet retirement application, expand the number of
eServices, and increase the use of eServices, it is imperative that the Agency address
the following issues:

•     authentication expansion; and
•     systems infrastructure.

Based on our interviews and research, we summarized some potential solutions to
these issues.

Authentication Expansion

Given the future enhancements and the nature and sensitivity of information maintained
in SSA’s systems, it is imperative that Agency employees know with whom they are
doing business regardless of contact method (in-person, on the telephone, or online).
This is increasingly important in an online environment because authentication plays a
key role in any expansion of eServices.

36
  Fully automating the process would require no human intervention from the point SSA receives an
application through the issuance of the payment in the case of retirement and disability, or official
document in the case of enumeration.
37
     Credential Service Providers authenticate users on SSA’s behalf.



SSA’s Electronic Government Services (A-14-08-28113)                                                    12
Successful expansion of electronic authentication is essential for the Agency to
completely automate processes, such as enumeration, disability, and Supplemental
Security Income claims. Some new SSA Internet applications may require an increased
level of identity proofing and authentication that is equivalent to an OMB level
3 assurance. 38 Level 3 authentication requires a minimum of two pieces of information
provided remotely through a network, such as the Internet, that will uniquely identify a
person before access to the application is granted. Before releasing information, such
as earnings history from SSA’s electronic files, SSA must ensure that applicants are
authenticated. SSA recently issued three requests for information on identity proofing, 39
authentication level 3 solution providers, and authentication consultants. SSA is
seeking qualified vendors to develop and implement level 3 authentication solutions for
individuals who wish to use online services.

Systems Infrastructure

Use of SSA’s eServices has been negatively impacted in the past by unexpected
system outages. 40 After an outage, it is difficult for an organization to regain the
confidence of its users, resulting in lower usage and negative publicity. SSA should
ensure that all systems related to eServices as well as those that could impact them
(other process that can consume computer resources or network capacity) are tested to
ensure that they do not abnormally terminate and prove they can handle additional
workload as more of the public begins to use the new eServices provided. All systems
should be closely monitored after implementation to identify and correct any anomalies
as soon as possible so that system outages do not occur.




38
  To determine the appropriate level of assurance in the user’s identity, agencies must assess the
potential risks, and identify measures to minimize their impact. OMB M-04-04 “E-Authentication
Guidance for Federal Agencies” helps agencies map risks to one of four assurance levels for
e-Government transactions. These require a user to present identifying material remotely through a
network, such as the Internet, that will uniquely identify them before access to the application is granted.
Risk management may help reduce the need for higher levels of authentication. For example, a process
rated for level 3 assurance may lower its profile to accept level 2 credentials by increasing system
controls. The National Institute of Standards and Technology Special Publication 800-63, “Electronic
Authentication Guideline” provides guidance for implementing electronic authentication and defines
technical requirements for each of the four levels of assurance.
39
  Identity proofing is the method to sufficiently validate information to uniquely identify users of Internet
applications. F.9.1




40
   A major systems outage between November 20 and 25, 2006 resulted in approximately 25,000 fewer
transactions completed through SSA’s Internet applications.



SSA’s Electronic Government Services (A-14-08-28113)                                                            13
                                  Matters for Consideration
The information we identified in this review supports the decision SSA made to promote
electronic services for its growing customer base. While SSA has had a long standing
history of providing face-to-face service, given budget constraints and the opportunities
provided by technology, it is realistic and desirable that SSA expand its provision of
electronic services to meet the well-documented increased demand for services. To
that end, we support the Agency in its efforts to take advantage of technology to make
work processes more efficient and provide the responsive service the public expects. It
appears that the front-line employees embrace the online services; but there is also
some uncertainty and/or questions about how this workload impacts the accounting for
FO productivity. To that end, Agency management must be cognizant of these
concerns and ensure there is accurate accounting of the workloads. As the Agency
implements its planned expansion of eServices, it also needs to develop appropriate
authentication measures tailored to each electronic application to identify individuals
and maintain the security of SSA’s most sensitive information. Furthermore, the Agency
should consider the items we listed in the above sections of this report.

In response to our draft report, the Agency provided detailed comments on current
Internet usage statistics as well as technical comments. SSA generally agreed with the
report’s content and findings; and, where appropriate, we incorporated SSA’s technical
comments. According to SSA, the Agency is very encouraged with the FY 2008 data
regarding online retirement applications and the increased filing rate achieved in the first
3 quarters of this FY compared to all of FY 2007. SSA plans to rollout the streamlined
retirement application in September 2008. The Agency believes that the improved
application and implementation of ongoing initiatives, combined with proper marketing
efforts, will position them to achieve an online retirement application filing rate of
50 percent by 2012. To further support online applications, SSA has taken great strides
to train employees regarding online applications and efforts will continue to ensure all
employees are familiar with the electronic service option SSA provides to the public.

We appreciate SSA’s comments and efforts to expand eServices so the Agency is
better prepared to manage the future workloads.




SSA’s Electronic Government Services (A-14-08-28113)                                     14
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Internet Retirement Application Process Flow
APPENDIX D – List of Electronic Services
APPENDIX E – OIG Contacts and Staff Acknowledgments




SSA’s Electronic Government Services (A-14-08-28113)
                                                                        Appendix A

Acronyms
    ACSI               American Customer Satisfactions Index
    CR                 Claims Representative
    Education          Department of Education
    eServices          Electronic Services
    FAFSA              Free Application for Federal Student Aid
    FO                 Field Office
    FY                 Fiscal Year
    GSA                General Services Administration
    ICTU               Immediate Claims Taking Unit
    IRIB               Internet Retirement Insurance Benefit
    IRS                Internal Revenue Service
    ISBA               Internet Social Security Benefit Application
    MCS                Modernized Claims System
    NeAC               National eServices Advisory Council
    NIST               National Institute of Standards and Technology
    OASDI              Old-Age, Survivors and Disability Insurance
    OES                Office of Electronic Services
    OMB                Office of Management and Budget
    POMS               Program Operating Manual System
    PSA                Public Service Announcements
    RSI                Retirement and Survivors Insurance
    SSA                Social Security Administration
    U.S.C.             United States Code




SSA’s Electronic Government Services (A-14-08-28113)
                                                                                  Appendix B

Scope and Methodology
The objective of our evaluation was to assess the Social Security Administration's (SSA)
electronic services (eServices) available to the public and how future initiatives can be
expanded—with special emphasis on the retirement application portion of SSA’s
Internet Social Security Benefit Application.

To accomplish our objective, we:

•     Reviewed such applicable laws, regulations, and guidance as the E-Government Act
      of 2002, 1 Office of Management and Budget (OMB) Memorandum M-04-04, 2 and
      the National Institute of Standards and Technology (NIST) Special Publication
      800-63. 3

•     Reviewed eServices documents and reports on SSA’s Intranet.

•     Interviewed General Services Administration employees to receive the status of the
      eAuthentication Federation and its ability to provide SSA with more than one
      certificate service provider.

•     Interviewed SSA employees in the Offices of Operations; Systems;
      Communications; and Budget, Finance and Management.

•     Visited two field offices (FO) to understand the retirement application and the
      enumeration process.

In addition, we interviewed operations supervisors 4 in 54 FOs to gather information on
their experiences with processing Internet retirement applications. Specifically, we
collected information on staff knowledge/confidence, ease of processing, and the
protocol for the Internet retirement applications. We questioned employees about their
experiences and knowledge of the online applications. We reported our actual findings
from these 54 interviews in this report.


1
    Public Law 107-347 Section 202 (a)(3).
2
    OMB Memorandum M-04-04, E-Authentication Guidance for Federal Agencies, December 16, 2003.
3
 NIST Special Publication 800-63, Electronic Authentication Guideline, issued April 2006, Draft NIST
Special Publication 800-63-1 issued February 26, 2008.
4
 We requested the operations supervisor; when unavailable we spoke to the individual acting in that
position at the time.



SSA’s Electronic Government Services (A-14-08-28113)                                                   B-1
In each region, we selected for interview the FO that had the most retirement claims,
the median number of retirement claims, and the least number of retirement claims. In
a similar fashion, we also selected for interview the FO with the most, median and least
Internet retirement claims in each region. A total of 54 FOs were surveyed (rather than
60) because 6 FOs met multiple criteria. Specifically, three FOs had both the maximum
total retirement applications processed and maximum Internet retirement applications
processed; one FO had both the median retirement applications processed and the
median Internet retirement applications processed; and two FOs had both the minimum
retirement applications processed and the minimum internet retirement applications
processed.

Below is the list of the 54 FOs interviewed.

           SAMPLE
                          REGION                       LOCATION
            ITEM
              1           Atlanta      596 Aiken SC
              2           Atlanta      619 Marietta GA
              3           Atlanta      642 Hattiesburg MS
              4           Atlanta      A99 Cleveland MS
              5           Atlanta      C28 Harlan KY
              6           Boston       032 Cambridge Somerville MA
              7           Boston       036 Worcester MA
              8           Boston       C64 Middletown CT
              9           Boston       C67 North Adams MA
              10          Boston       C70 Rumford ME
              11         Chicago       419 Lancaster OH
              12         Chicago       475 Valparaiso IN
              13         Chicago       677 ST Paul MN
              14         Chicago       703 Chicago Lawndale IL
              15         Chicago       A62 Hamtramck MI
              16          Dallas       756 Fort Smith AR
              17          Dallas       813 Austin TX
              18          Dallas       858 Albuquerque NM
              19          Dallas       E44 San Marcos TX
              20          Dallas       I35 Tuba City AZ
              21          Denver       093 Lakewood CO
              22          Denver       883 Pueblo CO
              23          Denver       C58 Watertown SD
              24          Denver       D29 Canon City CO
              25          Denver       I43 Havre MT
              26        Kansas City    098 Kansas City (gateway)
              27        Kansas City    699 Burlington IA
              28        Kansas City    725 Omaha NE
              29        Kansas City    752 Kennett MO
              30        Kansas City    769 Wichita KS
              31        Kansas City    C52 Lebanon MO
              32         New York      130 Troy NY



SSA’s Electronic Government Services (A-14-08-28113)                                 B-2
           SAMPLE
                          REGION                       LOCATION
            ITEM
              33         New York      136 Patchogue NY
              34         New York      138 Mineola NY
              35         New York      159 Chinatown NY
              36         New York      C79 Newton NJ
              37         New York      E23 Bronx Hub NY
              38        Philadelphia   215 Williamsport PA
              39        Philadelphia   274 Salisbury MD
              40        Philadelphia   294 Alexandria VA
              41        Philadelphia   318 Fairfax VA
              42        Philadelphia   D89 Williamson WV
              43       San Francisco   386 West Fresno CA
              44       San Francisco   907 Phoenix North AZ
              45       San Francisco   A17 Crescent City CA
              46       San Francisco   B58 Mission Viejo CA
              47       San Francisco   B61 Redlands CA
              48       San Francisco   B70 Corona CA
              49          Seattle      190 Bellevue WA
              50          Seattle      915 Spokane WA
              51          Seattle      920 Bellingham WA
              52          Seattle      925 Walla Walla WA
              53          Seattle      996 Juneau AK
              54          Seattle      D53 Bend OR


We also interviewed the National eServices Advisory Council regarding FO employees’
experiences with processing Internet retirement applications.

The organizational components reviewed were SSA’s Offices of Communications,
Operations and Systems. We performed our review at SSA Headquarters between
March and June 2008 in accordance with the Quality Standards for Inspections dated
January 2005.




SSA’s Electronic Government Services (A-14-08-28113)                             B-3
                                                                        Appendix C

Internet Retirement Application Process Flow
The flow of an Internet retirement claim through the Social Security Administration’s
(SSA) Internet Social Security Benefit Application (ISBA) is shown below.

                                                       Claimants enter their identity
      Citizens Enter their                             information (name, Social Security
       Claimant ID Info                                number, birthday, etc.).

                                                       ISBA matches the information
                                                       against SSA’s records. If a match
            Info                                       is found, the applicants are
                                No    Contact          assigned a confirmation number,
           Matches
                                       SSA             otherwise they are told to contact
          SSA Data?
                                                       SSA.

                 Yes                                   There are a series of input screens
                                                       with related instructional material.
     Citizen Enters Claim                              Once the claimants click on the
                                       ISBA
        Data into ISBA                                 “Submit” button, the information
                                     Database
                                                       updates the ISBA database.

     Citizen selects where                             The claimants are asked to choose
    their application will be                          where they want their application to
           processed                                   be processed. It can be sent to the
                                                       nearest Immediate Claims Taking
                                                       Unit or the nearest field office.

                                                       The claimants are instructed to
           Claimant                                    electronically “sign” the application
      Electronically Signs           List of ISBA      by clicking on the “signature”
             Claim                      Claims         button. This submits a notice to the
                                                       processing center that an ISBA
                                                       claim has been filed.

      Claimant is given a                              The claimants receive a receipt and
         Receipt and                                   instructions how to track the
          Instructions                                 progress of their claim. The
                                                       claimants are instructed to mail or
                                                       deliver certain documents to the
                                                       office that they selected.
             END
                                                       End of the claimant actions.


SSA’s Electronic Government Services (A-14-08-28113)                                     C-1
                                                       The rest of the process takes place
           List of                                     at either the field office or the
            ISBA                                       Immediate Claims Taking Unit.
           Claims



          Claims
    Representative (CR)
    uses MCS to start a
        new claim




           MCS
         Database

                                                       The Modernized Claim System
      MCS Propagates
                                                       (MCS) downloads the applicant’s
     Screens from ISBA                  ISBA           information from the ISBA
         Database                     Database         database.

                                                       The CR reviews the information,
       CR reviews MCS                                  corrects errors and determines
    claims screens, enters                             whether any information may need
      receipt of evidence                              corroborating documents that must
    and adjudicates claim                              be obtained from the claimant.

                                                       After the claimant has been
      Standard claims                                  contacted and any needed
    process is followed.                               evidence is obtained and reviewed
                                                       by the CR, the CR adjudicates the
                                                       claim

           END




SSA’s Electronic Government Services (A-14-08-28113)                                     C-2
                                                                     Appendix D

List of Electronic Services
This appendix outlines the electronic services provided by the Social Security
Administration (SSA) as identified in SSA’s management information performance
indicator.


                  Application Name                      Channel        Effective Date
 1   Retirement Application (ISBA)                       Internet     November 2000
 2   Spouse Application (ISBA)                           Internet     March 2001
 3   Disability Application (ISBA)                       Internet     January 2002
 4   Proof of Income Letter                               Internet    March 1999
                                                       800# Speech
 5   Proof of Income Letter                                           July 2004
                                                        Technology
 6   Medicare Replacement Card                            Internet    July 2000
                                                       800# Speech
 7   Medicare Replacement Card                                        April 2001
                                                        Technology
 8   Change of Address - password                         Internet    April 2001
 9   Change of Address - knowledge-based                  Internet    February 2004
                                                       800# Speech
10   Change of Address                                                July 2005
                                                        Technology
11   Direct Deposit                                      Internet     August 2001
                                                       800# Speech
12   Direct Deposit                                                   July 2005
                                                        Technology
13   I3368 Work History & Disability Report               Internet    August 2002
14   i3368 PRO Work History & Disability Report          Internet     February 2005
15   I3441 Disability Report – All Types                 Internet     February 2004
16   I3820 Disability Report - Child                     Internet     November 2003
17   Replacement 1099                                    Internet     March 1999




SSA’s Electronic Government Services (A-14-08-28113)
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kitt Winter, Director, Information Technology Audit Division (410) 965-9702

   Mary Ellen Moyer, Acting Audit Manager (410) 966-1026

Acknowledgments
In addition to those named above:

    Alan L. Lang, Senior Auditor

    Jan Kowalewski, Senior Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-08-28113.




SSA’s Electronic Government Services (A-14-08-28113)
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                           Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations (OI),
Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                   Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues of
concern to SSA, Congress, and the general public.
                                             Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State, and
local law enforcement agencies.
                              Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes, regulations,
legislation, and policy directives. OCIG also advises the IG on investigative procedures and techniques, as well as
on legal implications and conclusions to be drawn from audit and investigative material. Also, OCIG administers
the Civil Monetary Penalty program.
                                          Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases and
in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for those
seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal and
external organizations, and responds to Congressional correspondence.
                            Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates OIG’s
budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the focal point
for OIG’s strategic planning function, and the development and monitoring of performance measures. In addition,
OTRM receives and assigns for action allegations of criminal and administrative violations of Social Security laws,
identifies fugitives receiving benefit payments from SSA, and provides technological assistance to investigations.
